I

C@OQCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 20-1088

DAVID CARSON,

as Parent and Next Friend of O. C., et al.,

Petitioners,
Vv.

A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of Education,

Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR EDCHOICE
AND MAINE POLICY INSTITUTE AS AMICI CURIAE IN SUPPORT OF PETITIONERS in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),

being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,

and this brief contains 7985 words, excluding the parts that are exempted by Supreme Court Rule

33.1(d), as needed.

Subscribed and sworn to before me this 10th day of September, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

    

f GENERAL MOTARY-State of Nebraska
RENEE J. GOSS

My Comm. Exp. September 5, 2023

Notary Public

 

wooo Onda, Chl

3
